No. 20-843

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., et al.,
Petitioners,
v.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, et al.,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, John D. Ohlendorf, a
member of the Supreme Court Bar, certify that the BRIEF OF AMICUS CU-
RIAE SECOND AMENDMENT FOUNDATION ET AL. in the above entitled
case complies with the typeface requirements of Supreme Court Rule 33.1(b),
being prepared in Century Schoolbook 12 point for the text and 10 point for the
footnotes, and that this brief complies with the word limitation of Supreme
Court Rule 33.1(g)(xii), containing 7,989 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d).

y _
Date: July 19, 2021 é Pa L—

John D. Ohlendorf
